11
APPENDIX
[I deeply apologize in advance to this Supreme Court for
the unusual formatting which resulted as these court
documents were retrieved and moved from PDF to MS
Word platforms.]
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Lucero v. Koncilja
Decided Aug 6, 2019
No. 18-1404,

08-06-2019

ANTHONY J. LUCERO, Plaintiff - Appellant,
v.
JAMES R. KONCILJA; KONCILJA &
KONCILJA, P.C., Defendants - Appellees.
Scott M. Matheson, Jr. Circuit Judge
(D.C. No. 1:17-CV-01374-WJM-KMT)
(D. Colo.) ORDER AND JUDGMENT
Before MATHESON, BALDOCK, and MORITZ,
Circuit Judges.
After examining the briefs and appellate
record, this panel has determined
unanimously that oral argument would
not materially assist in the determination
of this appeal. See Fed. R. App. P.
34(a)(2); 10th Cir. R. 34.1(G). The case is,

12
therefore, ordered submitted without oral
argument. This order and judgment is
not binding precedent, except under the
doctrines of law of the case, res judicata,
and collateral estoppel. It may be cited,
however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and
10th Cir. R. 32.1.
Anthony J. Lucero appeals the dismissal of his
pro se complaint alleging Fourteenth
Amendment violations by his former counsel,
James R. Koncilja, and the law firm of Koncilja
& Koncilja, P.C. (collectively, the Koncilja firm).
We affirm.
I. BACKGROUND
After he was injured at work, Mr. Lucero hired
the Koncilja firm to represent him on worker's
compensation and related state tort claims.
Dissatisfied with his legal representation, Mr.
Lucero sued the Koncilja firm twice in state
court. Both cases then initiated this federal suit
pro se, asserting three claims for relief:
1) The Koncilja firm "committed gross legal malpractice
in every conceivable [rejspect and negligently violated
[his] [Fourteenth] Amendment rights" and "failed to even
do the minimal amount of legal work,... filed in the wrong
county, did absolutely no investigation^]... failed to do any
interrogatories, no depositions, no questioning or
photographs of [his] injuries, no medical discovery, and
ultimately [his] legal case was dismissed for ... failure to
prosecute." R. at 18 (emphasis and internal quotation marks

13
omitted).
(2) By "filing one day before the
deadline and filing [his] civil case
against the wrong parties,
Defendants precluded [him] or any
conscientious attorney from filing
[his] case." Id. at 20.
(3) His "[Fourteenth] Amendment rights
were severely violated in Colorado state
courts," and "[i]t apparently does not
really matter what laws or professional
conduct rules the KonciljaQ [firm]
violate [s], the courts still rule in their
favor." Id.
A magistrate judge recommended dismissal of the
Fourteenth Amendment claims because Mr. Lucero's
allegations against these private parties failed to allege state
action under 42 U.S.C. § 1983. Although Mr.
Lucero argued the Koncilja firm colluded with
the state court judge who presided over his
case (apparently in his second state suit against
the Koncilja firm), the magistrate judge
declined to consider that state-action
theory, ruhng that Mr. Lucero could not
effectively amend his complaint with these new
collusion allegations.
(3) The magistrate judge recommended that the remaining
claims be liberally construed to allege state-law
malpractice and fraud. Absent a viable
federal claim, however, the magistrate judge
recommended that the district court decline
to exercise supplemental jurisdiction over
the state-law claims and dismiss them.

14
Mr. Lucero objected to the dismissal of his
Fourteenth Amendment claims but did not
object to the dismissal of the state-law claims.
The district court adopted the magistrate
judge's report and recommendation but
modified its analysis of the Fourteenth
Amendment claims. Given Mr. Lucero's pro se
status, the court considered his state-action
theory. The court determined he failed to state
a claim because Mr. Lucero did not allege a
sufficient conspiratorial nexus between the firm
and the judge. Rather, he simply averred that
the state court judge ruled in favor of the
Koncilja firm, granted its motions for
extensions, and allowed late filings The court
therefore dismissed the Fourteenth
Amendment claims, and without any objection
to the dismissal of the state-law claims,
dismissed them as well. Mr. Lucero appealed.
II. DISCUSSION
We review de novo the district court's dismissal
of a complaint under Fed. R. Civ. P. 12(b)(6) for
failure to state a claim. Wasatch Equal, v. Alta
Ski Lifts Co., 820 F.3d 381, 386 (10th Cir. 2016).
"To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted
as true, to state a claim to relief that is plausible
on its face." Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). "Dismissal of a pro se complaint for
failure to state a claim is proper only where it is
obvious that the plaintiff cannot prevail on the
facts he has alleged and it would be futile to give
him an opportunity to amend." Kay v. Bemis,

15
500 F.3d 1214, 1217 (10th Cir. 2007) (internal
quotation marks omitted).
Although we afford a pro se litigant's materials a solicitous
construction, Van Deelen v. Johnson, 497 F.3d
1151, 1153 n.l (10th Cir. 2007), we have "repeatedly insisted
that pro se parties follow the same rules of
procedure that govern other litigants," Garrett v.
Selby Connor Maddux & Janer, 425 F.3d 836,
840 (10th Cir. 2005) (internal quotation marks
omitted). Indeed, we "cannot take on the
responsibility of serving as the litigant's attorney
in constructing arguments and searching the
record." Id. "Accordingly, we will not supply
additional facts, nor will we construct a legal
theory for plaintiff that assumes facts that have
not been pleaded." Peterson v. Shanks, 149 F.3d
1140, 1143 (10th Cir. 1998) (internal quotation
marks omitted).
A. Fourteenth Amendment Claims & State Action
We first consider Mr. Lucero's Fourteenth
Amendment claims. "To state a cause of action
under 42 U.S.C. § 1983 for an alleged violation
of the Fourteenth Amendment..., the
challenged conduct must constitute state
action." Scott v. Hern, 216 F.3d 897, 906 (10th
Cir. 2000) (citing Lugar v. Edmondson Oil Co.,
457 U.S. 922, 930-32 (1982)). "When a plaintiff
in a § 1983 action attempts to assert the
necessary 'state action' by implicating state
officials or judges in a conspiracy with private defendants,
mere conclusory allegations with no supporting factual
averments are insufficient; the pleadings must specifically
present facts tending to show agreement and concerted

16
action." Id. at 907 (internal quotation marks omitted). In
particular, a plaintiff must plausibly allege "a significant
nexus or entanglement between the absolutely immune
State official and the private party in relation to the steps
taken by each to fulfill the objects of their conspiracy."
Norton v. Liddel, 620 F.2d 1375, 1380 (10th Cir. 1980).
Mr. Lucero offers no specific allegations
suggesting a conspiracy between the Koncilja
firm and the state court judge who presided over
his case. He merely alleges the state court judge
repeatedly abused his discretion by ruling in
favor of the Koncilja firm, accepting the firm's
untimely filings, and granting its motions for
extensions of time, while denying or ignoring bis
similar requests. But these allegations do not
suggest a nexus or shared conspiratorial
objective between the firm and the state court
judge. Nor is there any inference that they
agreed or even acted in concert to violate Mr.
Lucero's Fourteenth Amendment rights. We
therefore agree with the district court that Mr.
Lucero failed to plausibly allege state action.
B. State-Law Claims & Firm Waiver Rule
We next consider Mr. Lucero's state-law claims.
As indicated above, although he objected to the
dismissal of his Fourteenth Amendment claims,
he did not object to the magistrate judge's
recommendation to dismiss the state-law claims.
"Under this court's firm waiver rule, the failure
to timely object to a magistrate judge's finding
and recommendations waives appellate review
of both factual and legal questions." Klein v.
Harper, 777 F.3d 1144, 1147 (10th Cir. 2015).

17
"This rule does not apply, however, when (1) a
pro se litigant has not been informed of the time
period for objecting and the consequences of
fading to object, or when (2) the interests of
justice require review." Morales-Fernandez v.
INS, 418 F.3d 1116, 1119 (10th Cir. 2005) (italics
and internal quotation marks omitted).
The first exception to the firm waiver rule is
inapplicable because the magistrate judge
informed Mr. Lucero he had 14 days to file
timely, specific objections to the report and
recommendation and that failure to do so would
waive appellate review. R. at 27. Neither do we
have occasion to consider the interests-of-justice
exception because Mr. Lucero advances no
argument invoking that exception. See Bronson
v. Swensen, 500 F.3d 1099, 1104 (10th Cir. 2007)
("[W]e routinely have declined to consider
arguments that are not raised, or are
inadequately presented, in an appellant's
opening brief."). Consequently, the firm waiver
rule bars review of the claims.
III. CONCLUSION
The judgment of the district court is affirmed.
Entered for the Court
Scott M. Matheson,
Circuit Judge

THIS IS A FINAL ORDER FOR PURPOSES OF THIS
APPEAL TO THE U.S. SUPREME COURT

18
B. ANTHONY J. LUCERO, Plaintiff, v. JAMES R. KONCILJA,
and KONCILJA & KONCILJA, P.C., Defendants.
United States District Court, D. Colorado.
September 6, 2018.
Editors Note
Applicable Law: 28 U.S.C. § 1983
Cause: 28 U.S.C. § 1983 Civil Rights
Nature of Suit: 440 Civil Rights: Other
Source: PACER

Attorney(s) appearing for the Case
Anthony J. Lucero, Plaintiff, pro se.
James R. Koncilja & Koncilja & Koncilja, P.C., Defendants,
represented by Glendon L. Laird . McElroy Deutsch Mulvaney &
Carpenter, LLP.

ORDER ADOPTING JULY 20, 2018
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE
WILLIAM J. MARTINEZ, District Judge.
Plaintiff Anthony Lucero ("Plaintiff" or "Lucero"), proceeding pro
se, brings Fourteenth Amendment claims against Defendants

19
James R. Koncilja ("Koncilja") and Koncilja & Koncilja, P.C.
(Jointly, "Defendants"). (ECF No. 5.) Defendants move to dismiss
for lack of subject matter jurisdiction pursuant to Federal Rule of
Civil Procedure 12(b)(1). (ECF No. 14 ("Motion").) Plaintiff filed a
Response to Defendants' Motion (ECF No. 37) ("Response") and
Defendants filed a Reply in support of their Motion (ECF No. 40).
United States Magistrate Judge Kathleen M. Tafoya filed a
Report and Recommendation recommending that Defendants'
Motion to Dismiss be granted. (ECF No. 50 ("Recommendation").)
Plaintiff filed an Objection to Judge Tafoya's Recommendation.
(ECF No. 51-1 ("Objection").) Upon review, the Court adopts
Judge Tafoya's recommended disposition, although for reasons
somewhat different than those relied upon by Judge Tafoya. As a
consequence, Defendants' Motion to Dismiss is granted.

I. BACKGROUND
On November 18, 2006, Plaintiff was working as a maintenance
engineer at Wyndham Hotels and Resorts in Colorado Springs
when he fell down an empty elevator shaft, injuring his ear,
kidney, spleen, arm, wrist, and knee. (ECF No. 5 at 2-3.) Plaintiff
hired James R. Koncilja and his law firm, Koncilja & Koncilja,
P.C. to represent him in his workers' compensation settlement
("Settlement") and in his lawsuit against Kone, Inc., Strobel
Construction Unlimited, Inc., Sedlak Electric Company, Heating
and Plumbing Engineers, Inc., and John Doe Construction 1
through 5 ("Lawsuit"). (Id. at 3.)
Plaintiff claims that "Koncilja committed gross legal malpractice
in every conceivable [resjpect and negligently violated
[Plaintiffs] Fourteenth Amendment rights that would have
insured a fair legal process." (Id.) According to Plaintiff,
Defendants failed to even do the minimal amount of legal work.
(Id.) Specifically, Plaintiff alleges that "Koncilja filed in the
wrong county, did absolutely no investigation of the scene, nor of
the hotel and their staff, no interviewing of culpable contractors.

20
Koncilja failed to do any interrogatories, no depositions, no
questioning or photographs of [Plaintiffs] injuries, no medical
discovery, and ultimately [Plaintiffs] legal case was dismissed
for [Plaintiffs] failure to prosecute'—even though James
Koncilja said that [Plaintiff] would make 'big money1 on that civil
suit against Wyndham Hotel[s], He did nothing, and [Plaintiff]
was awarded nothing."1 (Id. (emphasis in original).)
Plaintiff then retained Attorney Paul Gordon to sue Defendants
for professional negligence and breach of contract stemming from
the dismissal of Plaintiffs Lawsuit ("Malpractice Lawsuit").
(ECF No. 14 at 2.) Plaintiffs Malpractice Lawsuit was dismissed
by the Pueblo County District Court on August 6, 2012 "for
failing to file a certificate of review because expert testimony
would be required." (ECF No. 14-2 at 9.) This order of dismissal
was subsequently upheld by the Colorado Court of Appeals,
which "conclude [d that] the district court correctly ruled that
plaintiffs negligence and breach of contract claims require expert
analysis of the work performed by defendants and the facts
underlying plaintiffs accident-related claims." (ECF No. 14-3 at
7.) The Colorado Court of Appeals "perceive [d] no abuse of
discretion in this ruling and in the court's conclusion that
plaintiff was, thus, required to file a certificate of review as to his
professional negligence claim." (Id.) The Colorado Supreme Court
denied Plaintiffs petition for writ of certiorari. (ECF No. 14-4 at
1.)
On October 17, 2013, Plaintiff, proceeding pro se filed a second
malpractice lawsuit against Defendants ("Pro se Malpractice
Lawsuit") in the Pueblo County District Court based on their
actions, or lack thereof, in Plaintiffs Settlement and Lawsuit.
(ECF No. 14-5 at 1.) This time, the Pueblo County District Court
found that "the issues raised in the instant case are the same
issues that were or should have been raised in [the Malpractice
Lawsuit], Therefore, they may not be raised again in the instant
case." (Id. at 2.) The Pueblo County District Court also noted
that "the Court file does not show a certificate of review filed by
the Plaintiff. The Plaintiff must have been aware from his prior
cases that a certificate of review would be required. Therefore,

21
the Court finds that there is no good cause shown to excuse the
Plaintiff and this case must be dismissed for failure to comply
with C.R.S. 13-2-602." (Id. at 3.)
Instead of appealing the court's dismissal of his Pro se
Malpractice Lawsuit, Plaintiff filed a 24 page Motion for Relief
from Order Granting Defendants' Motion to Dismiss on
November 4, 2014. (ECF No. 14-6.) The Pueblo County District
Court denied this motion because "[t]he Plaintiff's remedy from
Judge Crockenberg's Order was to file a Notice of Appeal." (ECF
No. 14-7.) Plaintiff appealed the denial of his Motion for Relief
and the Colorado Court of Appeals affirmed the trial court's
order. (ECF No. 14-8 at 14.) Plaintiff subsequently appealed to
the Colorado Supreme Court, which again denied Plaintiff's
petition for writ of certiorari. (ECF No. 14-9.)

II. STANDARD OF REVIEW
When a magistrate judge issues a recommendation on a
dispositive matter, Federal Rule of Civil Procedure 72(b)(3)
requires that the district court judge "determine de novo any part
of the magistrate judge's [recommendation] that has been
properly objected to." Fed. R. Civ. P. 72(b)(3). In conducting its
review, "[t]he district court judge may accept, reject, or modify
the recommendation; receive further evidence; or return the
matter to the magistrate judge with instructions." Id. An
objection is proper if it is filed within fourteen days of the
magistrate judge's recommendations and is specific enough to
enable the "district judge to focus attention on those issues—
factual and legal—that are at the heart of the parties' dispute."
United States v. 2121 East 30th Street, 73 F.3d 1057. 1059 (10th
Cir. 1996) (quoting Thomas v. Arn, 474 U.S. 140. 147 (1985)).
"When no timely objection is filed, the court need only satisfy
itself that there is no clear error on the face of the record in order
to accept the recommendation." Fed. R. Civ. P. 72(b) advisory
committee's note; see also Summers v. Utah, 927 F.2d 1165, 1167
(10th Cir. 1991) ("In the absence of timely objection, the district

22

court may review a magistrate's report under any standard it
deems appropriate.").
Rule 12(b)(1) empowers a court to dismiss a complaint for "lack
of jurisdiction over the subject matter." Fed. R. Civ. P. 12(b)(1).
Dismissal under Rule 12(b)(1) is not a judgment on the merits of
a plaintiffs case. Rather, it calls for a determination that the
court lacks authority to adjudicate the matter, attacking the
existence of jurisdiction rather than the allegations of the
complaint. See Castaneda v. INS, 23 F.3d 1576. 1580 (10th Cir.
1994) (recognizing federal courts are courts of limited jurisdiction
and may only exercise jurisdiction when specifically authorized
to do so). The burden of establishing subject matter jurisdiction
is on the party asserting jurisdiction. Basso v. Utah Power &
Light Co., 495 F.2d 906. 909 (10th Cir. 1974). A court lacking
jurisdiction "must dismiss the cause at any stage of the
proceeding in which it becomes apparent that jurisdiction is
lacking." See id.
A Rule 12(b)(1) motion to dismiss "must be determined from the
allegations of fact in the complaint, without regard to mere
conclusory allegations of jurisdiction." Groundhog v. Keeler, 442
E:-2d 674, 677 (10th Cir. 1971). When considering a Rule 12(b)(1)
motion, however, the court may consider matters outside the
pleadings without transforming the motion into one for summary
judgment. Holt u. United States, 46 F.3d 1000. 1003 (10th Cir.
1995). Where a party challenges the facts upon which subject
matter jurisdiction depends, a district court may not presume the
truthfulness of the complaint's "factual allegations . . . [and] has
wide discretion to allow affidavits, other documents, and [may
even hold] a limited evidentiary hearing to resolve disputed
jurisdictional facts under Rule 12(b)(1)." Id.
In reviewing a Motion to Dismiss under Rule 12(b)(6) the Court
will "assume the truth of the plaintiffs well-pleaded factual
allegations and view them in the light most favorable to the
plaintiff." Ridge at Red Hawk, LLC u. Schneider, 493 F.3d 1174
1177 (10th Cir. 2007). Thus the Court "must accept all
allegations as true and may not dismiss on the ground that it

23
appears unlikely the allegations can be proven." Robbins u.
Oklahoma, 519 F.3d 1242. 1247 (10th Cir. 2008). "[A] wellpleaded complaint may proceed even if it strikes a savvy judge
that actual proof of those facts is improbable, and that a recovery
is very remote and unlikely." Id. (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544. 556 (2007) ("Twombly")).
"[T]o withstand a motion to dismiss, a complaint must contain
enough allegations of fact 'to state a claim to relief that is
plausible on its face.'" Robbins, 519 F.3d at 1247 (quoting
Twombly, 550 U.S. at 570). This means that "[t]he burden is on
the plaintiff to frame a 'complaint with enough factual matter
(taken as true) to suggest' that he or she is entitled to relief.
'Factual allegations must be enough to raise a right to relief
above the speculative level.'" Robbins, 519 F.3d at 1247 (quoting
Twombly, 550 U.S. at 545 & 556). Plaintiff "does not need
detailed factual allegations" but must plead more than merely
"labels and conclusions" or "a formulaic recitation of the elements
of a cause of action." Id.

III. ANALYSIS
In his Amended Complaint, Plaintiff raises three claims for
relief. First, Plaintiff argues that Defendants violated his
Fourteenth Amendment Due Process rights by "not investigating
any aspect of [Plaintiffs] life-threatening injuries at the
Wyndham Hotel & Resort." (ECF No. 5 at 4.) Second, Plaintiff
argues that by "filing one day before the deadline and filing
[Plaintiffs] civil case against the wrong parties, Defendants
precluded [Plaintiff] or any conscientious attorney from filing a
case." (Id. at 5.) Plaintiff further alleges that he "has submitted
substantial evidence that Defendants 0 actually protected the
real culprits from everQ being sued for damages that harmed
[him]." (Id. (Emphasis in original).) Finally, Plaintiffs third
claim for relief is that his "Fourteenth Amendment rights were
severely violated in Colorado state courts against [Defendants],
It apparently does not matter what laws or professional conduct

24
rules the Defendants violate, the Courts still rule in their favor."
(Id.) Plaintiff requests "the Federal District Court to recognize
the extreme judicial bias against [Plaintiff], and in favor of
Defendants] that persists throughout the Colorado judicial
system." (Id. at 7.) Additionally, Plaintiff requests financial relief
based on the amount Defendants thought Plaintiff could win in
his Lawsuit, the amount Defendants believed Plaintiff would
have been awarded in his Settlement, and jury verdicts that
have actually been awarded for similar injuries. (Id.)
In their Motion to Dismiss, Defendants argue that Plaintiffs
Fourteenth Amendment claims "are essentially the same as the
claims made in [Plaintiff's Malpractice Lawsuit] and [Plaintiffs
Pro se Malpractice Lawsuit]." (ECF No. 14 at 4.) Defendants
raise three main arguments in favor of dismissing Plaintiffs
claims pursuant to Rule 12(b)(1).
First, they argue that the state courts' dismissal of Plaintiffs
Malpractice Lawsuit and Plaintiffs Pro se Malpractice Lawsuit
divests this Court of jurisdiction. (Id. at 5.) Defendants argue
claim preclusion applies here because Plaintiffs prior lawsuits
were final judgments and were resolved on the merits by the
state court (id.), Plaintiffs prior lawsuits were based upon claims
for relief identical to the present action (id. at 7), and the parties
to all three lawsuits are identical (id. at 10).
Second, Defendants argue that all of Plaintiffs claims are time
barred because the statute of limitations bars legal malpractice
actions alleging negligence brought more than two years after
the action accrues. (Id.)
Third, Defendants argue that even if the Court were to reach the
merits of Plaintiffs Fourteenth Amendment claims, Plaintiffs
claims fail because his Fourteenth Amendment due process
claims fail to allege state action. (Id. at 12.)
Plaintiff responded to each of these arguments in his Response.
(ECF No. 37.) First, Plaintiff contends that claim preclusion does
not apply here because these Fourteenth Amendment claims

25
ere not brought forward or argued at the state court and there
was no trial, no resolution on the merits, and no final judgment.
(ECF No. 37 at 6.) Plaintiff argues that the state court dismissals
were without prejudice and were not based on the merits of his
arguments and are therefore not entitled to preclusive effect.
(Id.)
Second, Plaintiff maintains that his claims are not time barred
because his initial filings were within the statute of limitations,
it takes several years to go through the state court's appeals
procedures, and there was only a short lapse between his filings.
(Id. at 7.)
Third, in response to Defendants' state actors argument, Plaintiff
argues that Defendants, although private parties, were acting as
state actors for purposes of 42 U.S.C. § 1983. (Id.) Plaintiffs
argument relies on a Fifth Circuit opinion which held that a
private party can be deemed a state actor if he or she is a joint
participant with a state official in the offending enterprise.
Ballard v. Wall, 413 F.3d 510. 519 (5th Cir. 2005). The Fifth
Circuit held that to establish that the attorneys were joint
participants in the judge's alleged offending enterprise, the
plaintiff is required to demonstrate that the attorneys and judge
knowingly participated in the alleged conspiracy. Id. Plaintiff
argues that "the now retired Judge Crockenberg, an employee of
the State of Colorado, did not even try to hide his rulings on
whatever [Defendants] wanted. Defendants and the court were
one and the same. They were a 'team.' You could even say that
Defendants were actually their own judge. Whatever
Defendants] Q put to the court, the Defendants received the
ruling they wanted." (ECF No. 37 at 8 (emphasis in original).)
Judge Tafoya's Recommendation focuses on the state action
argument. First, she found that in his Amended Complaint,
Plaintiff fails to allege any facts that show that the defendants
are state actors. (ECF No. 50 at 5.) She acknowledges that
Plaintiff attempted to correct this deficiency in his Response to
Defendants' Motion to Dismiss "by implying that the defendants
colluded with the state court judge who presided over Plaintiff's

26

legal malpractice case in order to receive the ruling they
wanted." (Id. (internal quotation marks omitted.)) First, Judge
Tafoya stated that Plaintiff may not effectively amend his
omplaint by alleging new facts in his response to a motion to
dismiss. She explained that even if Plaintiff had properly raised
this argument, "relief under § 1983 cannot be premised solely on
an argument that private actors misused available state
procedures or rules, particularly in the absence of overt and
significant assistance from state officials." (Id.) Her
Recommendation further stated, "because the court recommends
dismissal of Plaintiff's federal claims, the court also recommends
that the district court decline to exercise jurisdiction over
Plaintiff's state law claims." (Id. at 7.)
Plaintiff raises two main objections to Judge Tafoya's
Recommendation.2 First, Plaintiff argues that his § 1983
collusion claim was not an attempt to effectively amend his
Amended Complaint. (ECF No. 51-1 at 5.) He acknowledges that
he did not use the term "state actor" in his Amended Complaint,
but explains that was because "there is not any reference to that
term within his Federal Rules Handbook." (Id. (emphasis
omitted).) Additionally, he claims, "Lucero, having found the
name [sjtate [ajctor has subsequently and consistently described
all the attributions to [Defendants] to being the manifestations of
State Actor throughout his documents." (Id. (emphasis omitted).)
Second, Plaintiff argues that his § 1983 claims are not conclusory
allegations. (ECF No. 51-1 at 3.) Specifically, he claims that he
"has upwards of 48 exhibits that will show during discovery and
that irrefutably prove every assertion of [Defendants'] violations
of Lucero's 5th and 14th Amendments, U.S. Constitutional & Bill
of Rights guarantees to due process of law." (Id.) According to
Plaintiff, the Court "cannot determine some of the factual truths
of [Defendants'] violations of Lucero's constitutional rights
without discover [sic]." (Id. at 4.)
Given Plaintiff s pro se status, the Court will consider Plaintiff's
§ 1983 collusion claim, even though Plaintiff should have
specifically presented his Fourteenth Amendment claims as a

27
1983 collusion claim in his Amended Complaint. The Court
concludes that amending the Complaint would be futile, because
even if this § 1983 theory was included in the Amended
Complaint, the allegations in Plaintiffs response brief still fail to
state a claim upon which relief can be granted. The Court
expresses no opinion on Judge Tafoya's reasoning which relies on
the Tenth Circuit rule that relief under § 1983 cannot be
premised solely on an argument that private actors misused
available state procedures or rules.
The Tenth Circuit articulated the test to determine whether a
private individual has actively conspired with an immune state
official in Norton v. Liddel, 620 F.2d 1375. 1380 (10th Cir. 1980).a
It is our view that the critical inquiry in making this
determination is: Has the plaintiff demonstrated the existence of
a significant nexus or entanglement between the absolutely
immune State official and the private party in relation to the
steps taken by each to fulfill the objects of their conspiracy? The
resolution of such issues must, of necessity, be made on a case-tocase basis.
Here, Plaintiffs only allegation supporting his conspiracy theory
is that the state court judges ruled in Defendants' favor, granting
their motions for extensions and permitting late filings. (ECF No.
37 at 8-9.) "Nothing in the Amended Complaint [or Plaintiffs
Response or Objection] indicates that the court or the attorneys
were acting outside the confines of the neutral function of a
judicial forum." Shaffer v. Cook, 634 F.2d 1259, 1260 (10th Cir.
1980). Plaintiffs briefs fail to allege the kind of conspiratorial
nexus between the state court and Defendants contemplated in
Norton that would support a cognizable § 1983 claim.
While Plaintiff insists that he has evidence to support his
collusion claim, the Court is not convinced. As the First Circuit
articulated, "when a complaint omits facts that, if they existed,
would clearly dominate the case, it seems fair to assume that
those facts do not exist." O'Brien v. DiGrazia., 544 F.2d 543, 546
n.3 (1st Cir. 1976). The same is true for a plaintiff that asserts

28

the existence of "irrefutably]" evidence (ECF No, 51-1 at 3) but
does not actually disclose it. Accordingly, the Court adopts Judge
Tafoya's Recommendation as modified herein and grants
Defendants' Motion to Dismiss with respect to Plaintiff's Fourth
Amendment claims.
Neither party objected to Judge Tafoya's recommendation that
the Court decline to exercise jurisdiction over Plaintiffs state law
claims. As to that issue, the Court concludes that Judge Tafoya's
analysis was thorough and sound, and that there is no clear error
on the face of the record. Accordingly the Court adopts Judge
Tafoya's Recommendation with respect to Plaintiffs state law
claims and declines to exercise jurisdiction over these claims See
28 U.S.C. § 1367(c)(3).

IV. CONCLUSION
For the reasons set forth above, the Court ORDERS as follows:
1. The Magistrate Judge's July 20, 2018 Recommendation (ECF
NO. 50) is ADOPTED as modified herein;2. Plaintiffs Objection
(ECF NO. 51-1) is OVERRULED; 3. Defendants' Motion to
Dismiss (ECF No. 14) is GRANTED;4. Plaintiffs Amended
Complaint (ECF No. 5) is DISMISSED WITH PREJUDICE as to
his § 1983 cause of action and otherwise DISMISSED WITHOUT
PREJUDICE for lack of subject matter jurisdiction^. Plaintiffs
Motion to Recover Service Expenses (ECF No. 12) is DENIED AS
MOOT;6. Plaintiffs Motion for Judgment on the Pleadings
Pursuant to Fed. R. Civ. P. 12(c) is DENIED AS MOOT; and7.
The Clerk shall enter judgment accordingly and shall terminate
this case. The parties shall bear their own attorney's fees and
costs.

FootNotes
1- Plaintiffs Lawsuit was filed on his behalf by Koncilja at the El

29
Paso County District Court. It was dismissed on June 14, 2010
because the Court found "Plaintiff ha [d] not responded to the
March 19, 2010 Delay Prevention Order issued by [that] court or
filed any returns of service on other named defendants." (ECF
No. 14-1 at 2.) Accordingly, that court "dismissed [the action] for
failure to respond to the Delay Preveention [sic] Order or
prosecute in a diligent fashion." (Id.)
2. Plaintiff raises several issues in his Objection (ECF No. 51-1).
However, for purposes of this Order, the Court will focus
exclusively on the arguments that relate to the Magistrate
Judge's Report and Recommendation (ECF No. 50).
3. "A judge will not be deprived of immunity because the action
he took was in error, was done maliciously, or was in excess of
his authority, but rather he will be subject to liability only when
he has acted in the 'clear absence of all jurisdiction.’" Stump u.
Sparkman, 435 U.S. 349 (1978). Here, none of Plaintiffs
allegations indicate that any of the judges acted outside the
scope of the jurisdiction of their court. Thus, if they were parties
to this lawsuit, they would have absolute immunity for their
judicial acts. Therefore, the Court considers Plaintiffs § 1983
collusion claim as a collusion claim between private parties and
parties entitled to absolute immunity.

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 17-cv-01374-WJM-KMT
ANTHONY LUCERO,
Plaintiff,
v:

JAMES R. KONCILJA, and
KONCILJA & KONCILJA, P.C.,
Defendants.

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
Magistrate Judge Kathleen M. Tafoya
This case comes before the court on “Defendants’ Motion to Dismiss Plaintiff s
Amended Complaint for Lack of Subject Matter Jurisdiction Pursuant to Fed. R. Civ. P.
12(b)(1)” (Doc. No. 14 [Mot.], filed November 13, 2017). Plaintiff filed his response on
December 28, 2017 (Doc. No. 37 [Resp.]), and Defendants filed their reply on January 12, 2018
(Doc. No. 40 [Reply]).
STATEMENT OF CASE
Plaintiff, proceeding pro se, filed this case asserting claims against Defendants James R.
Koncilja and Koncilja & Koncilja, P.C. for legal malpractice and violations of his Fourteenth
Amendment rights to due process. (See Doc. No. 5 [Compl.].) Plaintiff also alleges the
defendants failed to follow Colorado statutes and rules when he filed a legal malpractice case
against them. {Id. at 5-6.)

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 2 of 9

STANDARD OF REVIEW
A.

Pro Se Plaintiff
Plaintiff is proceeding pro se. The court, therefore, “review[s] his pleadings and other

papers liberally and hold[s] them to a less stringent standard than those drafted by attorneys.”
Trackwell v. United States, 472 F.3d 1242, 1243 (10th Cir. 2007) (citations omitted). See also
Haines v. Kerner, 404 U.S. 519, 520-21 (1972) (holding allegations of a pro se complaint “to
less stringent standards than formal pleadings drafted by lawyers”). However, a pro se litigant’s
“conclusory allegations without supporting factual averments are insufficient to state a claim
upon which relief can be based.” Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). A
court may not assume that a plaintiff can prove facts that have not been alleged, or that a
defendant has violated laws in ways that a plaintiff has not alleged. Associated Gen. Contractors
of Cal., Inc. v. Cal. State Council of Carpenters, 459 U.S. 519, 526 (1983). See also Whitney v.
New Mexico, 113 F.3d 1170, 1173-74 (10th Cir. 1997) (court may not “supply additional factual
allegations to round out a plaintiffs complaint”); Drake v. City of Fort Collins, 927 F.2d 1156,
1159 (10th Cir. 1991) (the court may not “construct arguments or theories for the plaintiff in the
absence of any discussion of those issues”). The plaintiffs pro se status does not entitle him to
application of different rules. See Montoya v. Chao, 296 F.3d 952, 957 (10th Cir. 2002).
B.

Failure to State a Claim upon Which Relief Can Be Granted/

i

Defendants argue Plaintiffs claims should be dismissed pursuant to Federal Rule of Procedure
12(b)(1) for the Court’s lack of subject matter jurisdiction. (See Mot.) However, each of the
bases upon which Defendants seek dismissal—claim preclusion, statute of limitations, and
failure to allege a claim—is properly analyzed under Federal Rule of Civil Procedure 12(b)(6)
for the plaintiffs failure to state a claim. See Nichols v. Danley, 266 F. Supp. 2d 1310, 1312
(D.N.M. 2003) (res judicata); Aldrich v. McCulloch Props., Inc., 627 F.2d 1036, 1041 n.4 (10th
Cir. 1980) (statute of limitations).
2

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 3 of 9

Federal Rule of Civil Procedure 12(b)(6) provides that a defendant may move to dismiss
a claim for “failure to state a claim upon which relief can be granted.” Fed. R. Civ. P. 12(b)(6).
“The court’s function on a Rule 12(b)(6) motion is not to weigh potential evidence that the
parties might present at trial, but to assess whether the plaintiff s complaint alone is legally
sufficient to state a claim for which relief may be granted.” Dubbs v. Head Start, Inc., 336 F.3d
1194, 1201 (10th Cir. 2003) (quotation marks omitted).
“A court reviewing the sufficiency of a complaint presumes all of plaintiff s factual
allegations are true and construes them in the light most favorable to the plaintiff.” Hall v.
Bellmon, 935 F.2d 1106, 1198 (10th Cir. 1991). “To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible
on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 570 (2007)). Plausibility, in the context of a motion to dismiss, means that the
plaintiff pleaded facts which allow “the court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Id. The Iqbal evaluation requires two prongs of analysis.
First, the court identifies “the allegations in the complaint that are not entitled to the assumption
of truth,” that is, those allegations which are legal conclusion, bare assertions, or merely
conclusory. Id. at 679-81. Second, the Court considers the factual allegations “to determine if
they plausibly suggest an entitlement to relief.” Id. at 681. If the allegations state a plausible
claim for relief, such claim survives the motion to dismiss. Id. at 679.
Notwithstanding, the court need not accept conclusory allegations without supporting
factual averments. S. Disposal, Inc., v. Texas Waste, 161 F.3d 1259, 1262 (10th Cir. 1998).
“[T]he tenet that a court must accept as true all of the allegations contained in a complaint is

3

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 4 of 9

inapplicable to legal conclusions. Threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, do not suffice.” Iqbal, 556 U.S at 678. Moreover,
“[a] pleading that offers ‘labels and conclusions’ or ‘a formulaic recitation of the elements of a
cause of action will not do.’ Nor does the complaint suffice if it tenders ‘naked assertion[s]’
devoid of‘further factual enhancement.’” Id. (citation omitted). “Where a complaint pleads
facts that are ‘merely consistent with’ a defendant’s liability, it ‘stops short of the line between
possibility and plausibility of ‘entitlement to relief.’” Id. (citation omitted).
In evaluating a Rule 12(b)(6) motion to dismiss, courts may consider not only the
complaint itself, but also attached exhibits and documents incorporated into the complaint by
reference. Smith v. United States, 561 F.3d 1090, 1098 (10th Cir. 2009) (citations omitted).
“[T]he district court may consider documents referred to in the complaint if the documents are
central to the plaintiffs claim and the parties do not dispute the documents’ authenticity.” Id.
(quotations omitted).
ANALYSIS
A.

Fourteenth Amendment Claim
Plaintiff alleges the defendants “committed gross legal malpractice in every conceivable

aspect and negligently violated [his] 14th Amendment rights that would have insured a fair legal
process” while representing him in a Workers’ Compensation case against Wyndham Hotel.
(Compl. at 3.)
Under 42 U.S.C. § 1983, persons acting under the color of state law can be held liable for
depriving others of their constitutional rights. SeeAdickes v. S.H. Kress & Co., 398 U.S. 144,
150 (1970). In order to show that an action was taken under color of state law, a plaintiff must

4

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 5 of 9

show: (1) that the “alleged constitutional deprivation [was] ‘caused by the exercise of some right
or privilege created by the State or by a rule of conduct imposed by the State or by a person for
whom the state is responsible,’ ” and (2) that the “ ‘party charged with the deprivation [was] a
person who may fairly be said to be a state actor.’ ” Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526
U.S. 40, 50 (1999) (quoting Lugar v. Edmondson Oil Co., Inc., 475 U.S. 922, 937 (1982)).
In his Amended Complaint, Plaintiff fails to allege any facts to show that the defendants
are state actors. In his Response, Plaintiff attempts to correct this deficiency by implying that the
defendants “colluded” with the state court judge who presided over Plaintiff s legal malpractice
case in order to “receive^ the ruling they wanted.” (Resp. at 8.) However, Plaintiff “may not
effectively amend [his] Complaint by alleging new facts in [his] response to a motion to
dismiss.” In re Qwest Commc’ns Int’l, Inc., 396 F. Supp. 2d 1178, 1203 (D. Colo. 2004).
Furthermore, Plaintiff has not requested leave to amend his Amended Complaint in order to
allege additional facts or pursue new claims. Finally, relief under § 1983 cannot be premised
solely on an argument that private actors misused available state procedures or rules, particularly
in the absence of overt and significant assistance from state officials. Cobb v. Saturn Land
Company, Inc., 966 F.2d 1334, 1336-37 (10th Cir. 1992). Plaintiffs allegations in his Amended
Complaint that the state court judge abused his discretion by making rulings that Plaintiff
disagreed with fails to bring Plaintiffs Fourteenth Amendment claim within the ambit of § 1983.
Accordingly, Plaintiffs Fourteenth Amendment claim should be dismissed.
B.

Supplemental Jurisdiction

5

Case l;17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 6 of 9

Construing Plaintiffs Amended Complaint liberally because Plaintiff is not represented
by an attorney, Haines, 404 U.S. at 520-21, it appears Plaintiff also asserts common law claims
of legal malpractice and fraud.
“Federal courts are courts of limited jurisdiction. They possess only that power
authorized by Constitution and statute, which is not to be expanded by judicial decree.”
Kokkonen v. Guardian Life Ins. Co. ofAm., 511 U.S. 375, 377 (1994) (internal citations omitted).
If a court does not have jurisdiction over the subject matter of an action, the court must dismiss
the action. Full Life Hospice, LLC v. Sebelius, 709 F.3d 1012, 1016 (10th Cir. 2013).
This court recommends herein that Plaintiffs constitutional claim be dismissed, and,
thus, there is no basis for federal question jurisdiction. However, Plaintiff also contends that the
Court has diversity jurisdiction pursuant to 28 U.S.C. § 1332. {See Compl. at 2, 4.) Under §
1332, the federal courts have jurisdiction over all civil actions where the mater in controversy
exceeds the sum or value of $75,000 and the action is between citizens of different states. 28
U.S.C. § 1332(a). According to the Amended Complaint, all parties are citizens of Colorado.
{See Compl. at 1, Iff} 1-3.) Because Plaintiff and Defendants are citizens of the same state,
Plaintiff cannot maintain a diversity action against the defendants in this Court.
The pretrial dismissal of all federal claims-leaving only state-law claims—“generally
prevents a district court from reviewing the merits of the state law claim[s].” McWilliams v.
Jefferson Cnty., 463 F.3d 1113, 1117 (10th Cir. 2006); see also 28 U.S.C. § 1367(c)(3) (stating
that a district court may decline to exercise supplemental jurisdiction over state-law claims if
“the district has dismissed all claims over which it has original jurisdiction”). This is not an
inflexible rule, however, and a district court has discretion to adjudicate the merits of the state-

6

/

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 7 of 9

law claims when “the values of judicial economy, convenience, fairness, and comity” indicate
that retaining jurisdiction over the state-law claims would be appropriate. Carnegie-Mellon
Univ. v. Cohill, 484 U.S. 343, 349-50 (1988). Nevertheless, “in the usual case in which all
federal-law claims are eliminated before trial, the balance of factors to be considered under the
pendent jurisdiction doctrine . . . will point toward declining to exercise jurisdiction over the
remaining state-law claims.” Cohill, 484 U.S. at 350 n.7; see also Thatcher Enters, v. Cache
Cnty. Corp., 902 F.2d 1472, 1478 (10th Cir. 1990) (“Notions of comity and federalism demand
that a state court try its own lawsuits, absent compelling reasons to the contrary.”).
Here, because the court recommends dismissal of Plaintiff s federal claims, the court also
recommends that the District Court decline to exercise jurisdiction over Plaintiffs state law
claims.
CONCLUSION
WHEREFORE, for the foregoing reasons, the court
RECOMMENDS that “Defendants’ Motion to Dismiss Plaintiffs Amended Complaint
for Lack of Subject Matter Jurisdiction Pursuant to Fed. R. Civ. P. 12(b)(1)” (Doc. No. 14) be
GRANTED as follows:
1. Plaintiffs Fourteenth Amendment claim should be dismissed with prejudice for
failure to state a claim upon which relief can be granted; and
2. The District Court should decline to exercise supplemental jurisdiction over
Plaintiffs remaining claims. The court further
RECOMMENDS that all other pending motions be DENIED as moot.

7

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 8 of 9

ADVISEMENT TO THE PARTIES
Within fourteen days after service of a copy of the Recommendation, any party may serve and
file written objections to the Magistrate Judge’s proposed findings and recommendations with
the Clerk of the United States District Court for the District of Colorado. 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 72(b); In re Griego, 64 F.3d 580, 583 (10th Cir. 1995). A general objection that
does not put the district court on notice of the basis for the objection will not preserve the
objection for de novo review. “[A] party’s objections to the magistrate judge’s report and
recommendation must be both timely and specific to preserve an issue for de novo review by the
district court or for appellate review.” United States v. One Parcel ofReal Prop. Known As 2121
East 30th Street, Tulsa, Okla., 73 F.3d 1057, 1060 (10th Cir. 1996). Failure to make timely
objections may bar de novo review by the district judge of the magistrate judge’s proposed
findings and recommendations and will result in a waiver of the right to appeal from a judgment
of the district court based on the proposed findings and recommendations of the magistrate
judge. See Vega v. Suthers, 195 F.3d 573, 579-80 (10th Cir. 1999) (a district court’s decision to
review a magistrate judge’s recommendation de novo despite the lack of an objection does not
preclude application of the “firm waiver rule”); One Parcel of Real Prop., 73 F.3d at 1059-60 (a
party’s objections to the magistrate judge’s report and recommendation must be both timely and
specific to preserve an issue for de novo review by the district court or for appellate review); Int’l
Surplus Lines Ins. Co. v. Wyo. Coal Ref. Sys., Inc., 52 F.3d 901, 904 (10th Cir. 1995) (by failing
to object to certain portions of the magistrate judge’s order, cross-claimant had waived its right
to appeal those portions of the ruling); Ayala v. United States, 980 F.2d 1342, 1352 (10th Cir.
1992) (by their failure to file objections, plaintiffs waived their right to appeal the magistrate

8

Case l:17-cv-01374-WJM-KMT Document 50 Filed 07/20/18 USDC Colorado Page 9 of 9

judge’s ruling); but see, Morales-Fernandez v. INS, 418 F.3d 1116, 1122 (10th Cir. 2005) (firm
waiver rule does not apply when the interests of justice require review).
Dated this 20th day of July, 2018.
BY THE COURT:

Kathleen M Tafoya
United States Magistrate Judge

9

